           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
         STATE OF MICHIGAN
   FAMILY INDEPENDENCE AGENCY
    FOR THE 2-YEAR PERIOD ENDED
          SEPTEMBER 30, 2000

   November 2001   A-77-02-00003




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                        .J'\' s£c&
                                                       ~(j~
                                                       W/ts~~
                                                      \      IIIIIII ~~
                                                          :t}.;IS~t'

                                           SOCIAL.         SECURITY

MEMORANDUM
                                            Office of the Inspector General
Date:      NOV   2 O   2001                                                          Refer   To:




To:
           Dan Sweeney
           Acting Director
           Management Analysis and Audit Program Support Staff
From:
           Assistant Inspector General
            for Audit

Subject:   Single Audit of the State of Michigan, Family Independence         Agency for the 2-Year
           Period Ended September 30, 2000 (A-77-02-00003)

           This report presents the Social Security Administration's (SSA) portion of the single
           audit of the State of Michigan, Family Independence Agency for the 2-year period
           ended September 30, 2000. The Michigan Office of the Auditor General performed the
           audit and its reports on compliance and internal controls are attached (see Appendix A),
           Results of the desk review conducted by the Department of Health and Human
           Services (HHS) have not been received. We will notify you when the results are
           received if HHS determines the audit did not meet Federal requirements.

           The Michigan Disability Determination Services (DDS) performs disability
           determinations under SSA's Disability Insurance (Dl) and Supplemental Security
           Income (SSI) programs in accordance with Federal regulations. The DDS is reimbursed
           for 100 percent of allowable costs. The Michigan Family Independence Agency (FIA) is
           the Michigan DDS's parent agency.

           For single audit purposes, the Office of Management and Budget (OMB) assigns
           Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA's Dl
           and SSI programs are identified by CFDA number 96. SSA is responsible for resolving
           single audit findings reported under this CFDA number.



             1. On the Schedule of Expenditures of Federal Awards (SEFA), FIA did not list the Dl
                program, CFDA 96.0011 as an individual grant of the DI/SSI cluster, and did not
                report the correct Federal assistance program title for the Dl program. The FIA's
                corrective action plan indicates that the Federal Reporting and Cost Allocation
                Section will review the SEFA against the CFDA to ensure that names and clusters
                 are correctly reported.
Page 2 - Dan Sweeney


2. The DDS did not have certifications to document that 4 of 13 sampled employees
   worked solely on SSA’s disability programs as required by OMB Circular A-87. The
   lack of certifications resulted in questioned costs of $9,186 ($2,809 and $6,377 for
   Fiscal Years 1999 and 2000, respectively). FIA’s corrective action plan indicates that
   a process has been established to document and maintain payroll certifications for
   staff whose personnel costs are charged to Federal programs. A process has also
   been implemented for interagency agreements with other State departments.

We recommend that SSA:

1. Verify that FIA has internal controls in place to ensure that the DI program,
   CFDA 96.001, is accurately recorded on the SEFA report.

2. Determine that procedures have been established to record and maintain payroll
   certifications for personnel costs charged to SSA's disability programs.

3. Recover the unallowable personnel costs of $9,186.

The single audit also disclosed the following findings that may impact DDS operations,
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency (see Appendix C).

FIA did not comply with prescribed Human Resources System’s internal control
procedures for preparing time and attendance records. Internal controls were not
maintained over the processing of personnel and payroll transactions in the following
instances:

•   Timekeeping procedures disclosed that FIA’s internal controls did not ensure that
    biweekly time and attendance summaries were prepared and certified by authorized
    personnel.

•   Control personnel for the FIA personnel and payroll information system did not
    maintain the required internal controls for entering and reconciling payroll and
    personnel information.
Page 3 -Dan   Sweeney


Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey
at (816) 936-5591.


                                     -i::::i~
                                        Steven Lo schaellr



Attachments
Appendix A
Page 1 of 5
Appendix A
Page 2 of 5
Appendix A
Page 3 of 5
Appendix A
Page 4 of 5
Appendix A
Page 5 of 5
Appendix B
Page 1 of 10
Appendix B
Page 2 of 10
Appendix B
Page 3 of 10
Appendix B
Page 4 of 10
Appendix B
Page 5 of 10
Appendix B
Page 6 of 10
Appendix B
Page 7 of 10
Appendix B
Page 8 of 10
Appendix B
Page 9 of 10
Appendix B
Page 10 of 10
Appendix C
Page 1 of 5
Appendix C
Page 2 of 5
Appendix C
Page 3 of 5
Appendix C
Page 4 of 5
Appendix C
Page 5 of 5
                           Overview of the Office of the Inspector General
                                                 Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the Social Security
Administration’s (SSA) programs and makes recommendations to ensure that program objectives are achieved
effectively and efficiently. Financial audits, required by the Chief Financial Officers Act of 1990, assess
whether SSA’s financial statements fairly present the Agency’s financial position, results of operations, and
cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs. OA also
conducts short-term management and program evaluations focused on issues of concern to SSA, Congress, and
the general public. Evaluations often focus on identifying and recommending ways to prevent and minimize
program fraud and inefficiency.


                                         Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the Inspector General
(OIG) – administrative support, strategic planning, quality assurance, and public affairs. OEO supports the OIG
components by providing information resources management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results Act. The
quality assurance division performs internal reviews to ensure that OIG offices nationwide hold themselves to
the same rigorous standards that we expect from the Agency. This division also conducts employee
investigations within OIG. The public affairs team communicates OIG’s planned and current activities and the
results to the Commissioner and Congress, as well as other entities.


                                             Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud, waste, abuse,
and mismanagement of SSA programs and operations. This includes wrongdoing by applicants, beneficiaries,
contractors, physicians, interpreters, representative payees, third parties, and by SSA employees in the
performance of their duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.


                                        Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General on various
matters, including: 1) statutes, regulations, legislation, and policy directives governing the administration of
SSA’s programs; 2) investigative procedures and techniques; and 3) legal implications and conclusions to be
drawn from audit and investigative material produced by the OIG. The Counsel’s office also administers the
civil monetary penalty program.
